No.______

In the

SUPREME COURT OF THE UNITED STATES
ALBERT MARTINEZ, Petitioner
v.
UNITED STATES OF NEW MEXICO, Respondent

On Petition for Writ of Certiorari to
the United States Court of Appeals for the Tenth Circuit
Certificate of Service
I, Alonzo Padilla, hereby certify that on September 8, 2020, a
copy of the petitioner’s Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari to the United States
Court of Appeals for the Tenth Circuit were mailed postage prepaid,
to the Solicitor General of the United States, Department of Justice,
Room 5614, 950 Pennsylvania Avenue, N.W., Washington, D.C.
20530-0001, counsel for the Respondent.

1

Respectfully submitted,
DATED: September 18, 2020

s/ Alonzo Padilla
Alonzo Padilla
Assistant Federal Defender
Attorney for the Petitioner
Counsel of Record
Office of the Federal Defender
District of New Mexico
111 Lomas Blvd., NW, Suite 501
Albuquerque, N.M. 87102
Telephone: (505) 346-2489
Facsimile: (505) 346-2494
E-mail: Alonzo_padilla@fd.org

2

